REVIEW OF THE PROMPTNESS OF PAYMENTS FOR WATER AND SEWER SERVICES PROVIDED BY THE DISTRICT OF COLUMBIA WATER AND SEWER AUTHORITY
Return
to the USDOJ/OIG Home Page
Review of the Promptness of Payments for Water and Sewer ServicesProvided by the District of Columbia Water and Sewer Authority
Report No. 01-06
February 15, 2001
Office of the Inspector General
Introduction
The Department of Justice (DOJ), Office of Inspector General (OIG), Audit Division conducted a review to determine if DOJ made timely payments to an account in the United States Treasury entitled, "Federal Payment for Water and Sewer Services," (Treasury Fund), which was established to reimburse the District of Columbia (D.C.) Water and Sewer Authority (WASA) for water and sewer services.  We initiated the review in response to the conference report to the Consolidated Appropriations Act, FY 2001, Public Law 106-554 (12/21/00) (Section 401):
The conference agreement inserts a new section concerning water and sewer payments by Federal agencies to the District of Columbia and requires the inspector general of each Federal entity to submit quarterly reports to the House and Senate Committees on Appropriations on the promptness of payment by the agency for water and sewer services furnished by the District.
See CONGRESSIONAL RECORD-HOUSE, December 15, 2000, DIVISION A, CHAPTER 4, DISTRICT OF COLUMBIA FEDERAL FUNDS, General Provisions-This Chapter, Sec. 401, Page H12308
The requirement is further explained in the following amendments to the D.C. Code enacted pursuant to § 401:
D.C. Code, Section 43-1552(b)(5)
Not later than the 15th day of the month following each quarter (beginning with the first quarter of fiscal year 2001), the inspector general of each Federal department, establishment, or agency receiving water services from the District of Columbia shall submit a report to the Committees on Appropriations of the House of Representatives and Senate analyzing the promptness of payment with respect to the services furnished to such department, establishment, or agency.
See Public Law 106-554, § 401 (a)
D.C. Code, Section 43-1612(b)(5)
Not later than the 15th day of the month following each quarter (beginning with the first quarter of fiscal year 2001), the inspector general of each Federal department, establishment, or agency receiving sanitary sewer services from the District of Columbia shall submit a report to the Committees on Appropriations of the House of Representatives and Senate analyzing the promptness of payment with respect to the services furnished to such department, establishment, or agency.
See Public Law 106-554, § 401 (b)
Scope and Methodology of OIG Review
Our review was designed to determine:  (1) if the DOJ made quarterly payments to the Treasury Fund; and if so, (2) were they made promptly.  The period of review was from the first quarter of FY 1990 through the first quarter of FY 2001.
We obtained, reviewed, and compared information provided by the General Services Administration (GSA) and DOJ's Justice Management Division.  The data from GSA disclosed DOJ-occupied facilities in D.C. that were government owned and either GSA operated or delegated to DOJ for operation, or were leased and delegated to DOJ.  The DOJ information identified all other privately owned facilities that were leased by GSA for DOJ use and one building owned by a component of DOJ.  From these documents we determined the nature of DOJ's occupancy agreements.  We then established if DOJ had responsibility to make the payments for D.C. WASA services to the Treasury Fund, to GSA, or directly to D.C. WASA.
Our review consisted of reviewing information provided by GSA and DOJ officials.  We did not perform detailed tests to verify the information contained in the documentation.  Thus, this report and the associated work was not performed in accordance with Government Auditing Standards (GAS) but was performed as an "other activity of an audit organization" pursuant to GAS 2.10.
Results
Based on our review, we found that:
No DOJ component occupying space in D.C. pays directly into the Treasury Fund for WASA services.
For all but two locations in D.C. where DOJ occupies space, GSA makes payments to the Treasury Fund for water and sewer services from rental payments made by DOJ to GSA.  The DOJ rental payments to GSA are for space occupied in federal buildings or in privately owned buildings where GSA acts as agent.  (See Appendix for a list of buildings occupied by DOJ.)
We concluded that DOJ paid D.C. WASA directly for services at two locations.  The Federal Prison Industries (FPI), a government corporation under non-appropriated funding, purchased its headquarters building in D.C. in 1998 and began paying D.C. WASA directly for services at that time.  DOJ paid D.C. WASA directly for services for leased privately owned space used by a non-DOJ federal agency, the Court Service and Offender Supervision Agency.  We excluded these payments from our review since they were not made to the Treasury Fund. 1
Conclusion
Absent any changes to the terms of occupancy in buildings used by DOJ in D.C., DOJ makes no payments directly to the Treasury Fund for D.C. WASA services, as defined in the D.C. Code.  Accordingly, our future reviews will be designed to update the status of DOJ occupancies as listed in this report.  If DOJ does make payments to the Treasury Fund for D.C. WASA services, we shall then report on the promptness of those payments.
Building Identification per DOJAddressType of Occupancy
Justice Building
320 First Street, NW
J. Edgar Hoover
Courthouse (Perryman Building)
460 New York Avenue, NW
Bicentennial Building
Bond Building
Chester Arthur Building
City Center
810 7th
FLAG
FRST
IND2
Judiciary Center Building
Liberty Place Building
LST
National Place Building
1301NY
NYAV
901E
1325PA
PENN
Patrick Henry Building
TechWorld
1331F
VT1
VT2
VT3
Gallery Row
Techworld Plaza
810 7th Street
Union Labor Life
Warner Building
601 4th Street
Automobile Maintenance
NYA 202
1301 Penn Ave
3365 V Street
1325 G Street
NALC
NCAP
Federal Prison Industries
9th & Constitution Avenue, NW
320 First Street, NW
935 Pennsylvania Avenue, NW
333 Constitution Avenue, NW
460 New York Avenue, NW
600 E Street, NW
1400 New York Avenue, NW
425 Eye Street, NW
1401 H Street, NW
810 7th Street, NW
1310 G Street, NW
500 First Street, NW
625 Indiana Avenue, NW
555 4th Street, NW
325 7th Street, NW
1100 L Street, NW
1331 Pennsylvania Avenue, NW
1301 New York Avenue, NW
1425 New York Avenue, NW
901 E Street, NW
1325 Pennsylvania Avenue, NW
601 Pennsylvania Avenue, NW
601 D St., NW
800 K Street
1331 F Street, NW
1100 Vermont Avenue, NW
1110 Vermont Avenue, NW
1120 Vermont Avenue, NW
401-417 7th Street, NW
801 Eye Street, NW
810 7th Street, NW
111 Massachusetts Avenue, NW
1299 Pennsylvania Avenue, NW
601 4th Street, NW
2800 V Street, NE
Federal Center, M Street, SE
1301 Pennsylvania Avenue, NW
3365 V Street, NE
1325 G Street, NW
100 Indiana Avenue, NW
800 N. Capitol Street, NW
400 1st Street, NW
AAABCDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDFPI Owned
Legend for Type of Occupancy
A = Government Owned /Delegated to DOJ
B = Government Owned/GSA Operated
C = Leased/Delegated to DOJ
D = Leased Privately Owned Buildings/GSA as Agent
Footnotes
Documents provided by FPI demonstrated that payments to D.C. WASA generally were timely.  We received no payment information for the Court Service and Offender Supervision Agency from the time of its federalization (August 2000) to present.  As such, we conducted no assessment for the timeliness of payments.